                                                    U.S. Department of Justice

                                                   Michael J. Sullivan
                                                   United States Attorney
                                                   District of Massachusetts


Press Office: (617) 748-3139                        John Joseph Moakley United States Courthouse, Suite 9200
                                                    1 Courthouse Way
                                                    Boston, Massachusetts 02210
                                                    October 31, 2008

                                           PRESS RELEASE

                                  P.A. LANDERS, INC. TO PAY $900,000
                               FOR CIVIL FALSE CLAIMS ACT VIOLATIONS

        Boston, MA... P.A. LANDERS, INC., a road construction company located in Hanover
and Plymouth, Massachusetts, has agreed to pay the United States $900,000 to settle civil claims
that the company defrauded the United States government on government-funded paving
projects.

        United States Attorney Michael J. Sullivan and Theodore L. Doherty, Special Agent in
Charge of the U.S. Department of Transportation’s Office of the Inspector General in New
England, announced today that the United States has reached agreement with P.A. LANDERS,
INC., to settle civil claims filed against the company in 2005. The civil Complaint filed by the
United States alleged that from 1995 through at least 2003, employees of P.A. LANDERS, INC.
generated fake and inflated weight slips for truck loads of asphalt on federally-funded paving
projects on which P.A. LANDERS, INC. worked. The Complaint alleged that, shortly after the
company built its asphalt production plant in Plymouth in 1995, the President of the company,
Preston “Skip” Landers, ordered that a manual override device be installed in the plant’s
computer control room. At the direction of company President Preston Landers, Gregory
Keelan, and other company managers, company employees used that override device to generate
fake asphalt weight tickets, which did not correspond to any actual asphalt load, as well as
inflated asphalt weight tickets, which overstated the amount of asphalt contained in an actual
load. The fraudulent asphalt weight tickets were delivered to federally-funded paving projects
and later used as the basis for payments to P.A. LANDERS, INC., and ultimately for claims
presented to the U.S. Department of Transportation for the federal share of the project costs.

       On May 9, 2007, P.A., LANDERS, INC., Preston A. Landers, and Gregory R. Keelan
were each found guilty by a jury of Conspiring to Defraud the Commonwealth of Massachusetts
and several of its municipalities, and Using the Mails to Defraud the Commonwealth of
Massachusetts and Several of its Municipalities, all in connection with the same course of
conduct alleged in the civil Complaint. On August 9, 2007, P.A. LANDERS, INC., was
sentenced to four years' probation and ordered to pay a fine of $3 million. Preston Landers was
sentenced to 42 months' imprisonment and ordered to pay a fine of $15,000, and Gregory Keelan
was sentenced to 30 months' imprisonment and ordered to pay a fine of $10,000.
        The government filed its civil Complaint after intervening in a “whistle blower” suit
brought in 1999 against P.A. LANDERS, INC. by a former employee of the company, Omar
Ali. The case was originally brought under the qui tam or “whistle blower” provisions of the
False Claims Act, which permits a private individual to bring suit against a business for
submitting or causing the submission of false claims for payment to the United States
government. Under the False Claims Act, the United States has the right to conduct an
investigation of the allegations and to intervene and take over the action if it chooses to do so. If
the law suit is successful, the private plaintiff may receive a share of up to 25 percent of any
money recovered for the government. Under the terms of the civil settlement, Mr. Ali will
receive 20 percent of the amounts paid by P.A. LANDERS, INC. to settle the United States’
claims. The settlement agreement also resolves Mr. Ali’s claims for wrongful termination.

       The case was investigated by the U.S. Department of Transportation’s Office of the
Inspector General with assistance from the Massachusetts Highway Department and the
Massachusetts Bay Transportation Authority. The case was prosecuted by Assistant U.S.
Attorney George B. Henderson, II in Sullivan’s Civil Division.

Press Contact: Christina Sterling, (617) 748-3139
